Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





 SCHIP: STATES’ PROGRESS IN 

  REDUCING THE NUMBER OF 

    UNINSURED CHILDREN





                     Inspector General

                      August 2004
                     OEI-05-03-00280
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
   A B S T R A C T                              





                      The Balanced Budget Refinement Act of 1999 requires that every
                      3 years the Office of Inspector General assess the progress made by
                      States in reducing the number of uninsured low-income children. This
                      is our second inspection to fulfill this mandate.

                      As of June 1, 2003, 46 States submitted State Children’s Health
                      Insurance Program (SCHIP) 2002 Annual Reports. Of these, 44
                      provided some response to the Centers for Medicare & Medicaid
                      Services’s (CMS) requirement that all States describe their progress in
                      reducing the number of uninsured low-income children in their Annual
                      Reports. However, only 22 of these States directly addressed the CMS
                      regulation to report a change in the number of uninsured children in the
                      State. Of these 22 States, 17 reported a reduction in the number of
                      uninsured children, 3 reported an increase, and 2 reported no change.
                      National data indicate that the rate of uninsured children nationally
                      has declined.

                      Instead of measuring changes in insurance among children, 19 other
                      States responded to this requirement by reporting on SCHIP
                      enrollment. Three States reported on something other than the number
                      of uninsured children or SCHIP enrollment. Two States submitted
                      Annual Reports that did not address their progress in reducing the
                      number of uninsured low-income children.

                      We recommend that CMS resolve the inconsistency between the
                      requirement that States report on changes in the number of uninsured
                      children and the practice of accepting enrollment data as a proxy. We
                      also recommend that CMS ensure the integrity, validity, and usefulness
                      of the SCHIP Annual Report and SCHIP enrollment data.



    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                        i
   E X E C U T I V E                                 S U M M A R Y   



                      OBJECTIVE
                              To fulfill the congressional mandate under the State Children’s
                              Health Insurance Program (SCHIP) to assess States’ progress in
                              reducing the number of uninsured, low-income children
                              To describe States’ self-assessment methods
                              To review the Centers for Medicare & Medicaid Services’s (CMS)
                              oversight of States’ assessments


                      BACKGROUND
                      Enacted in 1997, SCHIP made approximately $40 billion in Federal
                      matching funds available to States over 10 years to provide coverage to
                      uninsured children below 200 percent of the Federal poverty level.

                      The Balanced Budget Refinement Act of 1999 requires that every
                      3 years the Office of Inspector General (OIG) (1) evaluate whether
                      States are enrolling Medicaid eligible children in SCHIP, and (2) assess
                      the progress made by States in reducing the number of uninsured low-
                      income children, including their progress in meeting the strategic
                      objectives and performance goals included in the State child health
                      plan. This report addresses the second mandate. The first mandate
                      will be addressed in a separate report. This is the second time OIG has
                      conducted these inspections to fulfill the mandate.

                      Congress also mandated and CMS regulated that States annually
                      assess and report on their progress in reducing the number of uninsured
                      low-income children.

                      To assess States’ progress in reducing the number of uninsured low-
                      income children, we reviewed the fiscal year (FY) 2002 Annual Reports
                      submitted by 46 States. We determined that a State directly addressed
                      CMS’s regulations if the State reported on a change, or lack of change,
                      in the number and/or rate of uninsured children measured at two or
                      more points in time. In addition, we conducted case studies of six States
                      and consulted national data sources to further inform Congress on
                      national progress in reducing the rate of uninsured children.


                      FINDINGS
                      In FY 2002, 22 States described changes in the number of uninsured
                      children, and 17 of these States reported a decline. Forty-six States
                      submitted FY 2002 SCHIP Annual Reports to CMS. These reports are


    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                             ii
E X E C U T I V E                        S U           M M A R Y


                   required to provide assessments of State’s progress in reducing the
                   number of uninsured low-income children. However, only 22 of these
                   States directly addressed CMS’s requirement to provide an estimate of
                   changes in the number of uninsured low-income children. The other
                   24 States did not report sufficient information to determine whether the
                   number of uninsured children had changed.

                   Of the 22 States that provided data on change in the number of
                   uninsured children, 17 States reported a decrease, 3 reported an
                   increase, and 2 reported no change in the number of uninsured children.
                   Several national data sources show a reduction in the national number
                   of uninsured children.
                   In response to CMS’s requirement, States provided Current
                   Population Survey, State survey, and enrollment data. The 22 States
                   that measured changes in the number of uninsured children relied on
                   the Census Bureau’s Current Population Survey (CPS) or State survey
                   data.

                   Instead of providing data on change in the number of uninsured
                   children, 19 States provided enrollment data in response to the
                   requirement to describe their progress in reducing the number of low-
                   income uninsured children. There are several reasons why an increase
                   in enrollment does not directly correspond to a decrease in the number
                   of uninsured. Some children who enroll in SCHIP had a previous
                   source of insurance, and so their SCHIP enrollment does not change the
                   number of uninsured children. For example, some children transition to
                   SCHIP from Medicaid. Likewise, a small percentage of SCHIP enrollees
                   may have had prior private health coverage, despite SCHIP provisions
                   to minimize shifts from private to public insurance. Further, external
                   factors that result in loss of private coverage, such as a rise in
                   unemployment, could cause uninsurance rates for children to increase
                   despite increases in SCHIP enrollment.

                   Three additional States provided responses that measured something
                   other than insurance or enrollment, and two States submitted Annual
                   Reports that did not provide any response to CMS’s requirement.

                   States’ challenges to addressing their progress to reduce the number of
                   low-income uninsured children include limitations associated with CPS
                   estimates and costs of conducting a State survey. CPS limitations
                   include small sample sizes for some States and underestimates of
                   enrollment in public programs. Congress has funded annual
                   improvements to the CPS through FY 2006.

 OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                       iii
E EX XE EC CU UT TI IV VE E            S SU UM MM MA AR RY Y


                      CMS has not ensured that States describe changes in the number of
                      uninsured children. As the Federal administrator of SCHIP, CMS’s
                      responsibilities include holding States accountable for directly
                      addressing SCHIP regulations. CMS has not ensured that States report
                      data on changes in the number of uninsured low-income children, as
                      evidenced by the 28 of 50 States that did not directly address this
                      requirement in 2002.

                      Though CMS regulations require States to provide an annual estimate
                      of changes in the number of uninsured in the State, in practice, CMS
                      accepts enrollment data as a proxy measure of States’ progress in
                      reducing the number of uninsured children. CMS recognizes that
                      enrollment data does not measure changes in insurance coverage but
                      reports that it accepts an enrollment proxy because of challenges States
                      face in assessing their progress in reducing the number of uninsured
                      children.


                      RECOMMENDATIONS
                      CMS should resolve the inconsistency between the requirement that
                      States report on changes in the number of uninsured children and
                      CMS’s practice of accepting enrollment data as a proxy. We present
                      two options for resolving this inconsistency.
                      Option 1: Enforce exisiting regulations that require States to report
                      changes in the number of uninsured children.
                      Option 2: Broaden the requirements for States’ reporting of progress
                      toward reducing the number of uninsured children to include changes in
                      SCHIP enrollment as an acceptable measure of this progress.
                      CMS should ensure the integrity, validity, and usefulness of the
                      SCHIP Annual Report and SCHIP enrollment data. Toward this end,
                      regardless of the option chosen above, CMS should work with States in
                      the following three specific areas.
                      (1) CMS should encourage States to obtain the most precise and
                      reliable State-level estimates of number of children with health
                      insurance.

                      (2) CMS should improve its oversight to ensure that States submit
                      relevant and timely information on progress toward reducing the
                      number of uninsured children.

                      (3) CMS should ensure the accuracy of SCHIP enrollment data.


    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                           iv
E X E C U T I V E                        S U           M M A R Y 





                   AGENCY COMMENTS
                   CMS provided comments on the draft report. CMS agreed with several
                   of our recommendations and described steps the agency has
                   implemented to improve the integrity of the States’ SCHIP Annual
                   Reports. The complete text of CMS’s comments can be found in
                   Appendix B.




 OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                   v
   T A B L E        O F             C O N T E N T S                                 




           ABSTRACT ....................................................... i



           E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii 



           INTRODUCTION ................................................ 1




           FINDINGS ....................................................... 7

                      Insurance Trends .................................................................................7 


                      States’ Data Sources ............................................................................9 


                      CMS Oversight...................................................................................14 




           R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



           A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22



           APPENDICES
           A : S U M M A R Y O F S T A T E R E S P O N S E S . . . . . . . . . . . . . . . . . . . . . 24 



           B : C M S C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 



           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 



           E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

   I N T R O D U C T I O N                                           



                      OBJECTIVE
                              To fulfill the congressional mandate under the State Children’s
                              Health Insurance Program (SCHIP) to assess States’ progress in
                              reducing the number of uninsured, low-income children
                              To describe States’ self-assessment methods
                              To review the Centers for Medicare & Medicaid Services’ (CMS)
                              oversight of States’ assessments


                      BACKGROUND
                      Congressional Mandates to Evaluate SCHIP
                      Office of Inspector General (OIG). Section 703 of the Balanced Budget
                      Refinement Act (BBRA) of 1999 requires that every 3 years OIG
                      (1) evaluate whether States are enrolling Medicaid eligible children in
                      SCHIP, and (2) assess the progress made by States in reducing the
                      number of uninsured low-income children, including their progress in
                      meeting the strategic objectives and performance goals included in the
                      State child health plan (State plan). BBRA requires OIG to conduct the
                      assessment in a sample of States that administer SCHIP separately
                      from their Medicaid programs.
                      Government Accountability Office (GAO). BBRA also requires GAO to
                      monitor OIG evaluations. In response to OIG’s 2001 evaluation,
                      Assessment of State Evaluations Reports (OEI-05-00-00240), GAO
                      released a March 2002 report entitled Inspector General Reviews
                      Should be Expanded to Further Inform Congress. The GAO report
                      found that increasing the number of States under review and including
                      those that administer Medicaid expansion programs and Medicaid-
                      SCHIP combination programs would better inform Congress. Further,
                      GAO suggested that OIG identify and evaluate States that use more
                      rigorous methods to measure their progress and to review other sources
                      of information that assist States in improving their evaluations.

                      OIG concurred with GAO’s recommendation to expand the scope of
                      future reviews of SCHIP. In addition, OIG agreed to consider other
                      data sources to assess progress, while continuing to focus on what
                      States currently do to measure their program performance.
                      States. Through section 2108(a) of the Social Security Act (the Act),
                      Congress also requires States to annually assess their own SCHIP
                      progress, including the progress made in reducing the number of
                      uninsured low-income children, and report to the Secretary by

    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                             1
I N T R O D 
U C T                  I O N

                   January 1 on the results of their assessment.1 Section 2107(a) of the
                   Act requires that each SCHIP State plan include a description of the
                   program’s strategic objectives and performance goals, including those
                   related to increasing health insurance coverage for low-income children,
                   and methods for assessing progress toward these goals.2
                   CMS also issued regulations implementing this mandate of Section
                   2108(a) of the Act. Title 42 C.F.R. § 457.750(b)(1) requires that, in their
                   Annual Reports, States must “describe the State’s progress in reducing
                   the number of uncovered, low-income children.” The regulations also
                   outline States’ options for estimating the number of uninsured, low-
                   income children, using the Bureau of the Census’s Current Population
                   Survey (CPS), State surveys, or “another appropriate source.”
                   Whichever source of data is chosen, according to
                   42 C.F.R. § 457.750(c)(2), “the State must provide an annual estimate of
                   changes in the number of uninsured in the State.”
                   The State Children’s Health Insurance Program: Overview
                   Enacted in 1997 as Title XXI of the Act, SCHIP legislation made
                   approximately $40 billion in Federal matching funds available to States
                   over a 10-year period to provide coverage to uninsured children below
                   200 percent of the Federal poverty level.3 The program’s goal is to
                   expand coverage to uninsured children with incomes that exceed the
                   States’ Medicaid eligibility levels, but remain too low to purchase
                   private health insurance coverage.4 Within Federal guidelines, States
                   set eligibility standards for the program; determine the type, amount,
                   duration, and scope of services offered; and set payment rates for
                   providers.5
                   SCHIP is a State and Federal partnership in which all States and the
                   District of Columbia have approved State plans, and 49 States and the
                   District of Columbia have enrolled children (herein referred to as the
                   50 States).a Unlike Medicaid, SCHIP is not an entitlement program,
                   and States have the discretion to cap enrollment, create waiting lists of
                   eligible children, or not offer a SCHIP at all. Title XXI requires States
                   with separate programs to screen SCHIP applicants for Medicaid
                   eligibility before enrolling them in SCHIP.

                   States have three options for covering uninsured children under
                   Title XXI. They can (1) institute a separate children’s health insurance



                   a Tennessee does not have any children enrolled in its Title XXI program.




 OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                               2
I N T R O D        U C T             I O N

                    program, (2) expand Medicaid eligibility, or (3) institute both a separate
                    SCHIP and a Medicaid expansion, known as a combination program.

                    In fiscal year (FY) 2002, 5,315,229 children were enrolled in SCHIP
                    under Title XXI.6
                    The Current Population Survey
                    The Current Population Survey (CPS), sponsored by the Bureau of the
                    Census and the Bureau of Labor Statistics, is a primary source of data
                    on the number of uninsured children. CPS’s main purpose is to collect
                    labor force statistics, but it also collects data on health insurance
                    coverage through the Annual Demographic Supplement survey
                    conducted each March.

                    CPS provides a consistent source of longitudinal data on the number
                    and rate of uninsured children each year.7 CPS is the only source of
                    both national and State-level estimates of the number and rate of
                    uninsured children for all 50 States. The State-level CPS estimates are
                    used to determine each State’s annual SCHIP-funding allotment.

                    Some States have concerns about the precision and reliability of CPS
                    data due to small State sample sizes. In 1999, Congress responded in
                    Public Law 106-113 to these concerns by allocating $10 million annually
                    through FY 2006 to the Bureau of the Census to

                               “make appropriate adjustments to the annual Current Population
                               Survey…in order to produce statistically reliable annual State
                               data on the number of low-income children who do not have health
                               insurance coverage, so that real changes in the uninsured rates of
                               children can reasonably be detected.”8
                    Adjustments include increasing sample sizes to improve estimates of
                    the number of uninsured low-income children.
                    Other National Data on Insurance Rates for Children
                    The National Health Interview Survey conducted annually by the
                    Centers for Disease Control and Prevention (CDC) collects national-
                    level data on a broad range of health topics, including the health
                    insurance status for children.

                    The Behavioral Risk Factor Surveillance System conducted annually by
                    CDC collects State-level health insurance data on adults. States may
                    choose to fund additional State specific questions on the health
                    insurance status of children.

                    The Urban Institute, a non-profit organization, conducts the National
                    Survey on America’s Families to collect information on a variety of

 OEI-05-03-00280    A S S E S S I N G S TAT E S ’ P R O G R E S S                             3
I N T R O D 
U C T                  I O N

                   issues, including children’s current health insurance status and SCHIP
                   enrollment. This survey provides national data and State-level data for
                   13 States. Surveys were conducted in 1997, 1999, and 2002.
                   State Fiscal Constraints and Impact on SCHIP
                   According to The Fiscal Survey of States, conducted by the National
                   Governors Association and the National Association of State Budget
                   Officers, States continue to face budgetary pressures. This report found
                   that “budget gaps are lingering as spending pressures persist,
                   particularly from Medicaid and other health care.”9 States have
                   curtailed spending, and FY 2004 expenditures are expected to rise only
                   by 0.2 percent over FY 2003, representing the smallest nominal increase
                   since 1979.10 In FY 2004, 13 States enacted decreased budgets.11
                   As States encounter difficulty producing required Federal matching
                   funds for Title XXI programs, some States have elected to cap SCHIP
                   enrollment, increase premiums, increase the rigor of the enrollment
                   process, and lower the upper limit for income eligibility to adjust to the
                   increasing budget deficits.12 As of November 2003, six States had
                   frozen their SCHIP enrollment.13
                   Related Work by the Office of Inspector General
                   In February 2001, OIG released two separate reports on SCHIP to fulfill
                   the congressional mandate to OIG. In Ensuring Medicaid Eligibles are
                   not Enrolled in SCHIP, (OEI-05-00-00241), OIG found that between 97
                   and 99 percent of SCHIP participants were correctly enrolled in SCHIP
                   in FY 1999. In Assessment of State Evaluations Reports,
                   (OEI-05-00-00240), OIG found that questionable evaluations by the
                   States undermine the reliability of reported success in reducing the
                   number of uninsured children. OIG also found that State evaluations
                   have conceptual and technical weaknesses.


                   SCOPE
                   This evaluation addresses the second directive of the BBRA mandate, to
                   assess States’ progress in reducing the number of uninsured low-income
                   children. As required by Congress, OIG is concurrently conducting a
                   separate evaluation to determine if Medicaid-eligible children are being
                   incorrectly enrolled in SCHIP.

                   To assess State progress, this report evaluates States’ assessments of
                   their progress toward reducing the number of uninsured children. We
                   also assessed the methods States use to determine this progress, as
                   described in their FY 2002 SCHIP Annual Reports. In addition, we

 OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                           4
I N T R O D        U C T             I O N

                    provide national level data on changes in the rate of uninsured children.
                    We included all States and the District of Columbia (herein referred to
                    as a “State”) that submitted FY 2002 Annual Reports by June 1, 2003.
                    Annual Reports were due by January 1, 2003. Connecticut, Hawaii,
                    Minnesota, and Nevada had not submitted reports by June 1, 2003, and
                    Tennessee was exempt from the Annual Report requirement because
                    the State had no children enrolled in its SCHIP program. Therefore, we
                    reviewed Annual Reports from 46 States.

                    We analyzed States’ progress and methods to the extent that sufficient
                    data and information was provided in their Annual Reports. We did not
                    conduct an independent evaluation of the reported outcomes of
                    individual States’ performance objectives.


                    METHODOLOGY
                    To assess States’ progress in reducing the number of uninsured low-
                    income children, we reviewed the FY 2002 Annual Reports submitted by
                    46 States. From these reports we determined whether States directly
                    addressed CMS’s regulations to describe the State’s progress toward
                    reducing the number of uninsured low-income children by providing an
                    annual estimate of changes in the number of uninsured in the State.
                    We determined that a State directly addressed CMS’s requirement if
                    the State reported on a change, or lack of change, in the number and/or
                    rate of uninsured children measured at two or more points in time.
                    Though Congress and CMS-specified low-income children, we
                    considered States that provided information on progress toward
                    reducing the number of all uninsured children as having addressed
                    CMS’s requirement. Data limitations prevented more detailed analyses,
                    including comparisons across States.

                    We also undertook in-depth analyses and conducted site visits in six
                    case study States: California, Florida, Massachusetts, North Carolina,
                    Rhode Island, and Utah. These States were identified by CMS and
                    SCHIP stakeholders as having notable evaluation expertise or
                    experience. Diversity in size, geography, program administration, and
                    measurement methodologies were additional criteria for selection.
                    These States encompass all three types of SCHIP program design
                    (i.e., separate child health program, SCHIP Medicaid expansion, and
                    combination). These States are not representative of the universe of
                    States.




 OEI-05-03-00280    A S S E S S I N G S TAT E S ’ P R O G R E S S                         5
I N T R O D        U C T             I O N

                    In addition to their Annual Reports, we further reviewed the methods
                    by which the six case study States evaluated their outcomes through
                    interviews with their SCHIP staff, researchers, and advocates.

                    We interviewed CMS staff to gain further understanding of how they
                    oversee States’ Annual Reports and their role in monitoring SCHIP
                    progress toward reducing the number of uninsured children.

                    We also obtained information on the national trends in insurance
                    coverage for children from (1) the CPS, (2) the National Health
                    Interview Survey, and (3) the Urban Institute’s National Survey of
                    America’s Families.

                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-05-03-00280    A S S E S S I N G S TAT E S ’ P R O G R E S S                        6
      F I N D I N G S 



In FY 2002, 22 States described changes in the                  While 44 of the 46 States provided
 number of uninsured children, and 17 of these                  some response to CMS in their
                     States reported a decline.                 2002 Annual Reports, only 22 of
                                                                these States directly addressed
                            CMS’s regulations requiring States to describe progress in reducing the
                            number of uninsured low-income children by estimating changes in the
                            number of uninsured in the State.b We determined that a State
                            directly addressed CMS regulations if the State reported a change, or
                            lack of change, in the number and/or rate of uninsured children
                            measured at two or more points in time. For additional information on
                            States’ responses, see Appendix A.
                            Seventeen of these twenty-two States reported a reduction in the number or
                            rate of uninsured children.
                            Of the 22 States that directly addressed CMS’s requirement to measure
                            insurance coverage changes, 17 reported a decrease in the number of
                            uninsured children. Three States reported an increase in the number of
                            uninsured children and two States measured no change. Table 1 below
                            summarizes these States’ results.
Table 1. State-Reported Changes in Insurance for Children
    States reporting a decrease in the number of uninsured children                                     17
    States reporting an increase in the number of uninsured children                                     3
    States measuring no change in the number of uninsured children                                       2
    Total State responses                                                                               22
     Source: States’ SCHIP Annual Reports to CMS, FY 2002

                            Of the 17 States measuring a decrease in uninsured children, 5
                            specifically reported a reduction in the number of uninsured children
                            over time; 9 States reported a decrease in the rate of uninsured
                            children; and 3 States reported reductions in both the number and rate
                            of uninsured children.

                            State-reported reductions in the number of uninsured children range
                            from a 5 to 37 percent decline. For example, 1 State’s estimate of
                            uninsured children declined from 311,000 to 197,000 children, a
                            decrease of 37 percent. State-reported changes in insurance rates
                            ranged from 1.5 percentage points (representing an 18 percent


                            b Though Congress and CMS specified “low-income” children, we include States that
                              provided information on progress toward reducing the number of all uninsured children.



      OEI-05-03-00280       A S S E S S I N G S TAT E S ’ P R O G R E S S                                              7
F   I N D I N G 
S

                      reduction in the rate of uninsured children) to 6.3 percentage points
                      (representing a 66 percent reduction). For example, one State reported
                      its estimated rate of uninsured children dropped from 9.5 percent in
                      1996 to 3.2 percent in 2001. This represents a 66 percent reduction in
                      the rate for uninsured children.

                      State-reported progress in reducing the number of uninsured children is
                      not comparable across these 17 States. States measure change over
                      different periods of time and for different populations. For example,
                      three States reported change over a 1-year period, while other States
                      compared current estimates of the number of uninsured children to
                      estimates from up to 5 years earlier. Some States also provided
                      estimates from more than two points in time.

                      Further, 12 of the 17 States reported changes in the number of
                      uninsured children overall, while 5 reported specifically on children in
                      certain income ranges (e.g., children up to 200 percent of poverty). Only
                      2 of the 17 States provided information on the statistical significance of
                      their reported decreases in the number of uninsured children.
                      Five of the twenty-two States that directly addressed CMS requirements
                      reported an increase or no change in the number of uninsured children.
                      Specifically, three States reported an increase in the number of
                      uninsured children, and two States reported no change. Two of these
                      five States attributed their lack of measurable insurance progress to
                      factors related to their measurement of the number of uninsured
                      children. Specifically, one State’s estimate of the number of uninsured
                      children decreased, but this change was not statistically significant, so
                      we categorized this State as measuring no change. Another State
                      reported that their increase in the number of uninsured children was
                      due, in part, to a change in the weighting of its latest CPS estimates.
                      National data show a decline in the number of uninsured children.
                      To further inform Congress on the national progress toward reducing
                      the number of uninsured children, we consulted several data sources on
                      national insurance coverage trends for children. These estimates are
                      not directly comparable to one another because they provide data on
                      different populations (e.g., all children versus low-income children) or
                      different periods of time. However, all three sources provide evidence
                      that the national rate of uninsured children has declined.

                      Specifically, CPS data demonstrate a decline in the rate of uninsured
                      children nationally.14 In 1998, CPS estimated that 15.4 percent of all
                      children under 18 years old lacked health coverage. By 2002, this


    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                          8
  F   I N D I N G            S

                            estimate dropped to 11.6 percent, which represents a 25 percent
                            reductionc in the rate of uninsured children.15
                            The National Health Interview Survey, a survey administered by CDC
                            which collects health data from a random sample of individuals
                            nationwide, shows a statistically significant reduction in the rate of
                            uninsured children from 1997 to the first half of 2003. In 1997, this
                            survey estimated that nationally, 13.9 percent of all children lacked
                            health insurance at the time of the survey. By 2003, this rate had
                            dropped to 9.4 percent.16
                            The Urban Institute found that the rate of uninsured low-income
                            children below 200 percent of the poverty level fell from 22.5 percent in
                            1999 to 16.8 percent in 2002. 17 This decrease was associated with
                            increased Medicaid and SCHIP coverage.18

 To Respond to CMS’s requirement, States use 

      CPS, State Survey, and Enrollment Data.
                   The 22 States that directly
                                                                 addressed CMS’s requirement
                            relied on the CPS or State survey data to measure a change in the
                            number of uninsured children over time. Instead of measuring SCHIP
                            progress in reducing the number of uninsured children, 19 additional
                            States provided enrollment data in response to CMS’s requirement.
                            Three additional States provided responses that measured something
                            other than children’s insurance or enrollment progress, and two States
                            submitted Annual Reports that did not provide any response to this
                            requirement. Table 2 summarizes States’ responses from their 2002
                            Annual Reports.
Table 2. States’ Annual Report Assessments of Changes in the Number of Uninsured Children
States whose responses measured changes in the number of uninsured children                                22
States whose responses measured SCHIP enrollment                                                           19
States whose responses measured something other than children’s insurance or enrollment                     3
States whose Annual Reports did not provide any response to CMS’s requirement                               2
Total                                                                                                      46
  Source: States’ SCHIP Annual Reports to CMS, FY 2002




                 c The CPS revised its survey question during this time, which may affect the magnitude of this change.




      OEI-05-03-00280       A S S E S S I N G S TAT E S ’ P R O G R E S S                                             9
F   I N D I N G 
S

                      Of the 22 States that directly addressed CMS’s requirement, 12 relied on
                      CPS data.
                      Twelve States, including one case-study State detailed below, used CPS
                      data to measure the outcome of their efforts to reduce the number or
                      rate of uninsured children in their CMS Annual Report. Annually, CPS
                      provides a free, easily accessible source of longitudinal data on the
                      number and rate of uninsured children. CPS provides State-level
                      insurance estimates for all children and specific estimates for children
                      below 200 percent of the poverty level. For many States, CPS is the
                      only data source available for estimating changes in the number of
                      uninsured children.19
                      All States, as well as Congress, CMS, OIG, and the public, have access
                      to annual, State-level CPS estimates of uninsured low-income children.
                      However, some States face limitations by relying solely on CPS data for
                      State-level estimates of uninsured children.20 For States with smaller
                      populations, CPS sample sizes are relatively small.21 The smaller the
                      sample size, the less precise the estimate. These estimates may not
                      detect incremental changes in insurance rates over time. For example,
                      one State noted that its CPS estimates showed a reduction in the
                      number of uninsured children, but this reduction was not statistically
                      significant because the State’s CPS sample size was too small. Another
                      State reported that its total CPS-estimated eligible population was less
                      than its current Medicaid and SCHIP enrollment.

                      Beyond the concerns about sample size, CPS is an employment survey
                      that includes health insurance questions at the end of the survey. Some
                      researchers believe that a survey focused on health issues is more likely
                      to elicit accurate responses about health insurance status.22 Further,
                      CPS asks respondents in March about their health insurance coverage
                      at any time during the past calendar year, rather than their current
                      insurance status.23 Researchers expressed concern that CPS
                      respondents may erroneously report on current insurance status.24
                      Finally, CPS data tend to underestimate the number of children
                      enrolled in Medicaid, and these children may be incorrectly counted as
                      uninsured.25 One State noted that its CPS estimate of SCHIP coverage
                      was 83 percent lower than the State’s actual SCHIP coverage.
                      Rhode Island. Rhode Island finds CPS data valuable to track State
                      health insurance trends and progress in reducing the number of
                      uninsured children, despite its limitations. Though State SCHIP staff
                      acknowledged the imprecision of CPS point estimates, they expressed
                      confidence in the overall direction of change indicated by CPS data. The

    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                       10
F   I N D I N G 
S

                      exact number of uninsured children is less important to the State than
                      knowing whether the rate of uninsured children is declining.

                      To confirm CPS insurance trends for children, State staff consult
                      several additional data sources. Rhode Island added a question on
                      children’s insurance status for its State sample in the CDC-
                      administered Behavioral Risk Factor Surveillance System. The State
                      also collects health insurance status data through a State household
                      survey usually conducted every 5 years. Finally, the State consults
                      private coverage data from BlueCross BlueShield, which accounts for 69
                      percent of the State’s health insurance market, and data on the use of
                      uncompensated care provided by safety net providers.
                      The other 10 States that directly addressed CMS’s requirement used State
                      surveys.
                      Ten States conducted statewide surveys that enabled them to measure
                      and report on change in the number or rate of uninsured children over
                      time. By developing their own surveys States are able to tailor their
                      questions to overcome some of the limitations associated with CPS
                      insurance rate estimates and address State-specific concerns. Three of
                      these ten States were included in our case studies, and their efforts are
                      detailed below.
                      Florida. While Florida SCHIP staff expressed confidence in their CPS
                      insurance estimates, the State sought more detailed information on its
                      uninsured population. State staff believed that estimates of the rate of
                      uninsured children for different regions and demographic groups would
                      help Florida better understand and more effectively address uninsured
                      subpopulations. Florida fielded telephone surveys in 1998 and 2002
                      designed to produce estimates of insurance specific to 17 regions and
                      various demographic groups. The surveys also sought to determine if
                      uninsured children were likely to be eligible for Medicaid or SCHIP.
                      Massachusetts. According to Massachusetts’s staff, their State survey
                      has several advantages over CPS for estimating the State’s rate of
                      uninsured children, including a larger sample size which allows a more
                      precise estimate. And, unlike CPS, this survey focuses exclusively on
                      health insurance. Further, Massachusetts tested its survey questions
                      extensively using cognitive interviews and focus groups to ensure that
                      the survey would yield valid and reliable results.

                      Massachusetts’s survey results support its contention that CPS
                      overestimates its number of uninsured children. In 2002 the State
                      survey estimated that 3 percent of all children were uninsured, while


    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                        11
F   I N D I N G 
S

                      CPS estimated 7.8 percent. Estimates for Massachusetts from the
                      National Survey of America’s Families align more closely with the
                      results of the State survey than the CPS for this State.
                      Utah. From 1986 to 2001 Utah conducted a telephone survey every
                      5 years to collect comprehensive information on children’s health,
                      including their health insurance status. In its FY 2002 Annual Report,
                      Utah compared its estimated rates of uninsured children from 1996 to
                      2001 and found that the rate for uninsured children decreased from 8.5
                      percent to 7 percent. However, the State noted a limitation of this
                      comparison. In 2001, Utah changed its health insurance questions. The
                      State cannot determine how much of the change in it’s estimated
                      insurance rates since 1996 should be attributed to the change in the
                      survey questions, rather than an actual change in insurance coverage
                      during that time.
                      In response to CMS’s requirement, 19 additional States reported on
                      enrollment instead of progress in reducing uninsured children.
                      In their Annual Reports 19 additional States responded to CMS by
                      reporting on SCHIP enrollment, without providing information on the
                      changes in the number or rate of uninsured children over time. These
                      States reported a variety of enrollment information, including
                      enrollment at a point in time; changes in enrollment over time;
                      comparisons of SCHIP enrollment to an estimate of uninsured children
                      at a point in time, known as a penetration rate; or some combination of
                      these. Fourteen States reported changes in SCHIP enrollment over
                      time. Of these, 13 States reported enrollment increases, and 1 State
                      reported enrollment had remained stable.

                      While SCHIP enrollment increases provide one measure of program
                      success, these numbers do not indicate changes in States’ rates or
                      number of uninsured children. Some States interpret increases in
                      enrollment, an output, as net gains in health insurance coverage, an
                      outcome. However, enrollment increases are not analogous to insurance
                      increases for several reasons. Some children transition to SCHIP from
                      Medicaid, and so their SCHIP enrollment does not change the number
                      of uninsured children. Likewise, a small percentage of SCHIP enrollees
                      may have had prior private health coverage, despite SCHIP provisions
                      to minimize the shift from private to public sector insurance, which is
                      known as “crowd out.”

                      Further, external factors may affect the insurance rate for low-income
                      children. For example, if a large number of children lose their private
                      health coverage due to a rise in unemployment or a rise in private

    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                        12
F   I N D I N G 
S

                      insurance premiums, the number of uninsured children may increase
                      despite concurrent increases in SCHIP enrollment.
                      States offered technical and economic reasons for using enrollment data.
                      Eleven States, including three States that used enrollment data, cited
                      data limitations associated with CPS estimates in their Annual Reports.
                      States expressed concerns that CPS produces unreliable and imprecise
                      estimates for their States. As mentioned above, this is primarily due to
                      small State sample sizes, the fact that CPS is a lengthy labor-related
                      survey with health insurance questions at the end, and historical CPS
                      undercounts of public health insurance participation. For example, one
                      State explained that the CPS estimate of the total number of children
                      under 100 percent of poverty in the State was lower than the actual
                      number of children under 100 percent of poverty that were enrolled in
                      the State’s Medicaid program. Further, the State’s enrollment in
                      SCHIP is 128 percent of the CPS baseline estimate of all uninsured
                      children in the State. Another State also considered the CPS
                      measurement of insurance coverage at any time during the prior year,
                      rather than at a point in time, a disadvantage.

                      While a State survey could overcome CPS precision and reliability
                      concerns, a State survey may be cost-prohibitive. In interviews, SCHIP
                      staff from four States pointed to recent economic downturns and fiscal
                      constraints to explain why they did not focus on assessing their progress
                      in reducing the number of uninsured. Respondents explained that their
                      priorities have shifted from reducing the number of uninsured children
                      and increasing program enrollment to maintaining current enrollment
                      levels and preserving SCHIP benefits. One State’s SCHIP staff
                      acknowledged their inability to reliably measure their progress in
                      reducing the number of uninsured children but viewed this as a
                      necessary tradeoff, stating that they would “rather spend their money to
                      cover kids than to count them.”
                      North Carolina. North Carolina illustrates these explanations for using
                      enrollment data. Their performance objective related to reducing the
                      number of uninsured children is “to enroll as many children as possible
                      that can be covered within available funds.” This State estimates that
                      there are 35,000 more SCHIP-eligible children than the State’s target
                      enrollment goal, which is the maximum number of children the budget
                      will cover. According to SCHIP staff, they have insufficient funds to
                      cover all eligible children, in part, because CPS underestimated their
                      number of eligible children, and they have exhausted their Federal
                      SCHIP allotment.

    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                       13
F   I N D I N G        S

                      In their Annual Report North Carolina provided CMS with a baseline
                      insurance rate derived from an adjustment of CPS data. However,
                      neither the State staff nor the researchers who calculated this baseline
                      have confidence in the accuracy of this estimate. This lack of confidence
                      in the CPS estimate, combined with a lack of funding for a State survey,
                      has motivated a continuing reliance on enrollment numbers to assess
                      and report success.

                      In the Annual Report North Carolina specifies its performance goal as
                      its current number of enrollees. In effect, the States' goal is to maintain
                      current enrollment in the program, not to reduce the overall insurance
                      rate. State staff report that State funding availability and the
                      assumption that SCHIP is enrolled to capacity are the factors used to
                      determine their SCHIP goal. State SCHIP staff explain that because
                      they lack reliable data to demonstrate that there are additional eligible
                      but uninsured children, they must set their goals within budgeted
                      funds.

   CMS has not ensured that States describe                 CMS has not held States
changes in the number of uninsured children.                accountable for directly
                                                            addressing the CMS requirement
                      that States describes their changes in the number of uninsured low-
                      income children. As detailed above, 24 of the 46 States that submitted
                      Annual Reports to CMS did not describe their progress in reducing the
                      number of uninsured children. Four additional States had not
                      submitted Annual Reports by June 1, 2003, despite a deadline of
                      January 1, 2003.
                      CMS accepts enrollment data as a proxy measure of SCHIP progress.
                      Six years after SCHIP enactment, less than half of States report
                      directly on their progress in reducing the number of uninsured as
                      required by CMS. In lieu of this direct assessment, CMS accepts and
                      uses enrollment data from States as an alternative measure of program
                      success. CMS’s staff explained that States’ enrollment numbers provide
                      a reliable indicator of States’ SCHIP progress, as long as States
                      continue to take measures to prevent “crowd out” (i.e., substitution of
                      SCHIP for private health insurance). In addition, CMS consults CPS
                      data available from the Census Bureau to track national health
                      insurance trends for children as well as State-level CPS data for each
                      State.

                      There is incongruity between CMS’s requirement that States describe
                      their progress in reducing the number of uninsured children and CMS’s
                      acceptance of enrollment data from States as a substitute for a measure

    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                          14
F   I N D I N G 
S

                      of change in the number of uninsured children. Title XXI states that
                      the main long-term goal of SCHIP is to expand health assistance to
                      uninsured low-income children.26 The mandates that States assess and
                      report their progress in reducing the number of uninsured low-income
                      children, and that OIG assess States’ progress toward this goal
                      demonstrate Congress’s interest in this specific outcome. CMS
                      regulations also require States to provide an annual estimate of changes
                      in the number of uninsured children.27
                      However, CMS sets its SCHIP Government Performance and Results
                      Act (GPRA) goal around increasing enrollment. In its assessment of
                      SCHIP, the Office of Management and Budget (OMB) noted that CMS’s
                      GPRA goals do not measure the impact of SCHIP on the rate of
                      uninsured children, and OMB recommended that CMS develop goals to
                      measure this impact.28
                      CMS reported to us that it sets its GPRA goal around increasing SCHIP
                      enrollment because of the difficulties associated with measuring
                      changes in insurance rates, particularly in the context of changes in
                      economic conditions and private insurance markets. CMS also
                      emphasized the limitations of CPS data for State-level insurance
                      estimates, particularly for smaller States, and recognized that many
                      States cannot afford to field their own State insurance coverage surveys.
                      Further, CMS respondents pointed to studies that have shown minimal
                      “crowd out” to demonstrate the link between enrollment and insurance
                      increases.
                      Accuracy of SCHIP enrollment data raises additional concerns.
                      CMS emphasized limitations of available health insurance data.
                      However, we also found limitations with one of the primary enrollment
                      data elements for SCHIP -- the annual number of children “ever
                      enrolled” by State for each FY. CMS produces an annual summary of
                      the number of children “ever enrolled” in SCHIP by State, based on
                      unverified, State-submitted data. The Annual Report template also
                      asks States for the number of children “ever enrolled” in SCHIP. For 10
                      States, we found discrepancies between the numbers of “ever enrolled”
                      children reported in the Annual Reports and those reported in the CMS
                      enrollment summary. For instance, between FYs 2001 and 2002, one
                      State’s Annual Report showed an increase in enrollment of 7,000
                      children, while the CMS summary reported a decrease of 15,000
                      children for the same State. CMS described a new data reporting
                      system that it has implemented since our review that it expects will
                      improve the accuracy of State-reported enrollment data.

    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                       15
F   I N D I N G 
S

                      In addition, CMS’s enrollment summary double counts children who
                      transfer from one SCHIP program to another during the year. This
                      duplicate count occurs for children in the 20 States with both Medicaid
                      expansion and separate programs (combination States) who move from
                      one program to the other within the same State. It also occurs for
                      children who move from one State’s to another State’s SCHIP. CMS
                      recognized this limitation of its data on “ever enrolled” children.
                      However, CMS pointed out that it collects other types of unpublished
                      enrollment data, such as quarterly point-in-time enrollment counts,
                      that are not subject to this problem.
                      CMS has not ensured that States submit relevant, clear, and timely
                      information in their Annual Reports.
                      The law and CMS regulations require States to submit SCHIP Annual
                      Reports to describe their progress toward meeting the strategic
                      objectives and performance goals described in their State plans.29 CMS
                      regulations for State plans, which reflect Section 2107(a) of the Act, set
                      forth that States must specify one or more performance goals for each
                      strategic objective and must describe how performance will be measured
                      through objective, independently verifiable means and compared
                      against performance goals.30 SCHIP law specifically requires States to,
                      “assess the operation of the State plan, including the progress made in
                      reducing the number of uncovered low-income children.”31 And CMS
                      regulations require States to provide an annual estimate of changes in
                      the number of uninsured.32
                      CMS reports that its project officers are in contact with the States to
                      provide technical assistance that States need to complete their Annual
                      Reports and to check on States’ progress. CMS also reported that it
                      discusses content and deadlines of the Annual Report on monthly
                      SCHIP Technical Advisory Group calls.

                      Yet, these efforts have not ensured that States establish and report
                      strategic objectives, performance goals, and methodologies that are
                      relevant to measuring change in the number of uninsured children. For
                      example, one State described its performance goal related to reducing
                      the number of uninsured children as expanded capacity of the State’s
                      data systems and additional field staff training. Another State
                      described increased administrative and outreach capacity as its
                      performance goals and the hiring of 47 outstationed eligibility workers
                      as its progress related to reducing the number of uninsured children.

                      While these may be creditable goals for achieving other SCHIP
                      objectives, they are not performance goals that lead to measurement of

    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                        16
F   I N D I N G 
S

                      changes in the number of uninsured children. In comparison, an
                      example of a relevant, objective, and measurable performance goal
                      related to reducing the number of uninsured children was one State’s
                      goal that “the percent of children with creditable coverage for the entire
                      year, whose family income is between 150% and 200% of the Federal
                      Poverty Level, will be increased from 89.7% in 1998 to 95% in 2003.”

                      CMS has not required States to resubmit sections of the Annual Report
                      when they provide unclear information or outdated goals. In their 2002
                      Annual Reports, seven States submitted outdated goals related to
                      reducing the number of uninsured children. For example, one State
                      continued to cite a performance goal related to reducing the number of
                      uninsured children that the State had already achieved more than
                      2 years earlier.

                      CMS has not held States responsible for timely State Annual Report
                      submissions. Twelve States’ Annual Reports were submitted after the
                      January 1, 2003 deadline.d Late submissions ranged from 2 days to
                      5 months past this deadline. In addition, four States had not submitted
                      2002 Annual Reports at the time of our analysis in June 2003. CMS has
                      indicated that those States have since submitted 2002 Annual Reports,
                      but these reports were more than 5 months late.




                      d Eight additional States’ reports did not include a submission date.




    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                           17
   R E C O M M E N D A T I O N S                                     





                      In response to our congressional mandate, we found that 22 States
                      reported a change in the number or rate of uninsured children in their
                      FY 2002 Annual Report. The remaining 28 States did not report
                      sufficient information to allow us to assess whether they had reduced
                      their numbers of uninsured children.e CMS has not ensured that
                      States comply with CMS’s requirement that States’ describe changes
                      in the number of uninsured children. As such, we offer two options
                      for CMS to select in order to increase States’ compliance. In addition,
                      we offer a three-prong approach to assist CMS in working with States to
                      ensure the integrity, validity, and usefulness of all data submitted by
                      States in their Annual Report.
                      CMS should resolve the inconsistency between the requirement that States
                      report on changes in the number of uninsured children and CMS’s practice
                      of accepting enrollment data as a proxy.
                      Currently, there is inconsistency between CMS’s requirement that
                      States report on changes in the number of uninsured and CMS’s
                      acceptance of enrollment data as a proxy for progress toward reducing
                      the number of uninsured children. As CMS recognizes, enrollment data
                      does not measure changes in insurance coverage. We present two
                      options for resolving this inconsistency.
                      Option 1: Enforce exisiting regulations that require States to report changes in
                      the number of uninsured children.
                      As the agency responsible for overseeing SCHIP, CMS should hold
                      States accountable to directly address its requirement that States
                      describe their progress in reducing the number of uninsured low-income
                      children by providing an annual estimate of changes in the number of
                      uninsured in the State. If a State’s response does not demonstrate
                      change in the number of uninsured children, CMS should follow up with
                      that State to provide further clarification and technical assistance as
                      needed.




                      e Tennessee is excluded from this count because the State has no children enrolled in
                        SCHIP.



    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                                           18
R   E C O        M M E N D A T                         I O N          S


                      Option 2: Broaden the requirements for States’ reporting of progress toward
                      reducing the number of uninsured children to include changes in SCHIP
                      enrollment as an acceptable measure of this progress.
                      While CMS acknowledged that enrollment data does not measure
                      changes in insurance coverage, CMS provided justifications for
                      accepting enrollment data as a proxy measure of change in the number
                      of uninsured children. These justifications focused on challenges that
                      some States face estimating changes in the number of uninsured
                      children. However, this practice is not consistent with current
                      requirements for States to report on changes in the number of
                      uninsured children. If CMS decides that the challenges for some States
                      to obtain information on changes in the number of uninsured children
                      outweigh the benefits of the information, then CMS should change the
                      regulations to reflect this decision.

                      CMS should ensure the integrity, validity, and usefulness of the SCHIP
                      Annual Report and SCHIP enrollment data.
                      Toward this end, regardless of the option chosen above, CMS should
                      work with States in three specific areas (1) encourage States to obtain
                      the best estimates available of children’s insurance coverage, (2) ensure
                      States provide relevant and timely information on SCHIP progress as
                      required, and (3) ensure the accuracy of SCHIP enrollment data.
                      CMS should encourage States to obtain the most precise and reliable State-level
                      estimates of number of children with health insurance.
                      Many States face difficulties obtaining precise and reliable health
                      insurance estimates, including concerns about the imprecision and
                      unreliability of State-level estimates derived from CPS and the
                      costliness of State-initiated surveys.

                      Some States use CPS data in some way but do not directly address
                      CMS’s requirement to estimate change in the number of uninsured,
                      e.g., States that compare enrollment data to a CPS estimate of
                      uninsured children at one point in time. For these States, CMS should
                      provide technical assistance to SCHIP staff on how to best use CPS data
                      to measure progress in reducing the number of uninsured children.

                      On behalf of States that have concerns about the reliability of CPS data,
                      CMS should continue departmental efforts to collaborate with the
                      Bureau of the Census on increasing CPS sample sizes to make this data
                      more useful for each State. CMS should also encourage these States to



    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                            19
R   E C O        M M E N D A T                         I O N          S


                      revisit CPS data to determine whether ongoing CPS sample size
                      improvements have alleviated their concerns.

                      Further, CMS should work with States that continue to distrust CPS
                      estimates to identify or develop alternative data sources. CMS could
                      compile and share strategies that other States have used to measure
                      their progress in reducing the number of uninsured children.
                      Recognizing the costs of a new State survey, CMS can encourage States
                      to take advantage of existing surveys and data sources. For example,
                      States can minimize costs by adding questions on children’s health
                      insurance status to the existing CDC’s Behavioral Risk Factor
                      Surveillance Survey. The Urban Institute’s National Survey of
                      America’s Families also provides State-level estimates of children’s
                      health coverage for 13 States every few years. CMS could encourage
                      these 13 States to use this information to assess their progress toward
                      reducing the number of uninsured children.
                      CMS should improve its oversight to ensure that States submit relevant and timely
                      information on progress toward reducing the number of uninsured children.
                      While CMS reported having a process for overseeing the quality and
                      timeliness of States’ reporting, this process should be evaluated and
                      improved because it has not fully resolved deficiencies in States’ Annual
                      Reports. Similar to the methods we used for this report, CMS should
                      carefully review States’ Annual Reports to ensure that States provide
                      clear and timely information on their progress toward reducing the
                      number of uninsured children that meets CMS’s requirements. If a
                      State’s Annual Report describes performance goals, measures, or
                      outcomes that do not describe progress toward reducing the number of
                      uninsured children, CMS should follow up with that State for further
                      clarification and provide technical assistance as needed. Likewise, CMS
                      should provide guidance to States on updating outdated goals to reflect
                      current program conditions. CMS should also reinforce the importance
                      of submitting the SCHIP Annual Report by the January 1st deadline.
                      CMS should ensure the accuracy of SCHIP enrollment data.
                      Even beyond its use as a proxy measure for insurance progress,
                      enrollment data provide its own important measure of program success.
                      CMS should rectify inconsistencies between States’ 2002 enrollment
                      data reported in CMS’s enrollment report and data reported in States’
                      Annual Reports by reviewing the two numbers to identify and reconcile
                      any discrepancies. CMS has recently implemented a new reporting
                      system for States’ enrollment data and anticipates that this system will


    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                             20
R   E C O        M M E N D A T                         I O N          S


                      alleviate the data concerns cited in our report. CMS should review 2003
                      data to verify that this new system ensures data accuracy.

                      In addition, CMS should reconsider its methodology which double
                      counts children that transfer from one SCHIP program to another
                      during the same FY in States with both Medicaid expansion and
                      separate SCHIP programs. CMS should devise criteria for categorizing
                      such children in a way that produces an unduplicated count of “ever
                      enrolled” children, such as counting them in the program in which they
                      were enrolled for the greatest duration. CMS should also publish
                      additional types of data it collects, such as quarterly point-in-time
                      enrollment numbers, to provide a more robust picture of SCHIP
                      enrollment.




    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                      21
     A G E N C Y                      C O M M E N T S                





                      CMS provided comments on the draft report. CMS agreed with several
                      of our recommendations and described steps the agency has
                      implemented to improve the integrity of the States’ SCHIP Annual
                      Reports. The complete text of CMS’s comments can be found in
                      Appendix B. CMS also provided technical comments on the report.

                      CMS provided responses to each of our recommendations.
                      Recommendation 1. CMS should resolve the inconsistency between the
                      requirement that States report on changes in the number of uninsured
                      children and CMS’s practice of accepting enrollment data as a proxy.
                      CMS Response. In response to our recommendation to resolve
                      inconsistency, CMS stated that they will work with Congress to clarify
                      how progress should be measured and reported. CMS also noted that
                      their regulations require States to “describe the State’s progress in
                      reducing the number of low-income, uncovered children” but do not
                      specify a particular methodology for meeting this requirement.

                      Further, CMS agreed that they need to work with States to improve
                      State measurement efforts. Consistent with our recommendations,
                      CMS stated that they are taking steps to enhance technical assistance
                      to improve State measurement capabilities, including scheduling a
                      technical assistance session at an upcoming national conference. CMS
                      also highlighted some of the same difficulties States face in measuring
                      changes in the number of uninsured children that we discussed in our
                      report.
                      Recommendation 2. CMS should ensure the integrity, validity, and
                      usefulness of the SCHIP Annual Report and enrollment data.
                      CMS Response. CMS stated that, in addition to providing technical
                      assistance to States, they are reviewing all State reports on progress
                      toward covering the uninsured. Also, CMS has been encouraging States
                      to revisit CPS data in light of ongoing improvements to this survey, as
                      we recommended.

                      Further, CMS has implemented a new, web-based State Annual Report
                      Template System, and CMS highlighted this system’s role in
                      implementing this recommendation. CMS expects that this system will


    OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                       22
A G   E N     C Y      C O           M M E N T                      S


                    assist the agency to more effectively analyze State reports on progress
                    toward covering the uninsured. Consistent with our recommendations,
                    CMS stated that they are using this new system to more closely review
                    the information States provide and to request that States provide more
                    clear and accurate responses in their SCHIP Annual Reports. CMS also
                    expects the system to help improve CMS’s oversight of the SCHIP
                    Annual Report submission process. Additionally, this system will be
                    linked to the SCHIP enrollment data that CMS collects and reports, and
                    CMS stated that this will eliminate the discrepancies we found between
                    enrollment data in the SCHIP Annual Reports and in CMS’s enrollment
                    summaries.

                    In response to our recommendation that CMS reconsider its
                    methodology for “ever enrolled” data which double counts certain
                    children who transfer between SCHIP programs, CMS stated that the
                    number of double-counted children is limited, and that they do not
                    believe this impacts the total enrollment significantly. We suggested
                    that CMS also publish the “point-in-time” enrollment data they collect,
                    which is not duplicative, but CMS noted that this data is not as reliable
                    as “ever enrolled” data. CMS is working with States to improve data
                    reliability.

                    Throughout their comments, CMS also highlighted national data that
                    show significant reductions in the number of uninsured low-income
                    children since the implementation of SCHIP and indicate CMS’s and
                    States’ success in achieving SCHIP program goals. As we noted in our
                    report, national data does provide evidence of success in reducing the
                    number of uninsured low-income children, the primary goal of SCHIP.
                    We hope that our recommendations and the steps that CMS has
                    implemented will contribute to continued national progress toward this
                    goal and ensure that each State shows similar success.




 OEI-05-03-00280    A S S E S S I N G S TAT E S ’ P R O G R E S S                        23
         A P P E N D I X                              ~            A



         States’ Responses to CMS’s Requirement in their 2002 Annual Reports
States whose responses measured progress in reducing the number of uninsured children
1         Alabama                                                       12       Montana
2         Arizona                                                       13       New Hampshire
3         Delaware                                                      14       New Jersey
4         Florida                                                       15       New York
5         Georgia                                                       16       Ohio
6         Idaho                                                         17       Rhode Island
7         Kansas                                                        18       South Carolina
8         Kentucky                                                      19       Utah
9         Louisiana                                                     20       Washington
10        Massachusetts                                                 21       West Virginia
11        Maryland                                                      22       Wisconsin
Source: States’ SCHIP Fiscal Year 2002 Annual Reports

States whose responses measured SCHIP enrollment
1         Alaska                                                            11   North Carolina
2         Arkansas                                                          12   North Dakota
3         California                                                        13   Oklahoma
4         Colorado                                                          14   Pennsylvania
5         Illinois                                                          15   South Dakota
6         Iowa                                                              16   Texas
7         Maine                                                             17   Vermont
8         Michigan                                                          18   Virginia
9         Missouri                                                          19   Wyoming
10        Nebraska
Source: States’ SCHIP Fiscal Year 2002 Annual Reports

States whose responses measured something other than children’s insurance or enrollment
1         Indiana                                                       3        Oregon
2         Mississippi
Source: States’ SCHIP Fiscal Year 2002 Annual Reports

States whose Annual Reports did not include any response to CMS’s requirement
1         District of Columbia                                          2        New Mexico
Source: States’ SCHIP Fiscal Year 2002 Annual Reports

States that did not submit an Annual Report by June 1, 2003
1         Connecticut                                                   3        Minnesota
2         Hawaii                                                        4        Nevada
Note: Tennessee was not required to submit a 2002 Annual Report because they had no enrolled children in SCHIP.


         OEI-05-03-00280    A S S E S S I N G S TAT E S ’ P R O G R E S S                                  24
   A P P E N D I X                              ~            B




OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S   25
OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S   26
OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S   27
OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S   28
OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S   29
     A C K N O W L E D G M E N T S                               



                  This report was prepared under the direction of William Moran, Regional
                  Inspector General for Evaluation and Inspections in the Chicago regional
                  office. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Emily Melnick, Team Leader
                  Erin Lemire, Lead Analyst

                  Amy Hennessy, Presidential Management Fellow

                  Annamarie Lopata, Intern
                  Linda Hall, Program Specialist

                  Elise Stein, Director, Public Health and Human Services




OEI-05-03-00280   A S S E S S I N G S TAT E S ’ P R O G R E S S                      30
   E N D         N O T E S                     





                      1    Social Security Act, Section 2108(a)

                      2    Social Security Act, Section 2108(a) and 42 C.F.R. § 457.750(b)(1)

                      3    Title XXI of the Social Security Act (State Children’s Health Insurance
                            Program (SCHIP) enabling legislation) was created by the Balanced
                            Budget Act of 1997 (Public Law 105-33).

                      4    Social Security Act, Sections 2101(a) and 2110(b)

                      5    Social Security Act, Sections 2102 and 2103

                      6    SCHIP Preliminary Annual Enrollment Report for Fiscal Year (FY)
                            2002. Posted January 31, 2003. Available online at
                            http://www.cms.hhs.gov/schip/enrollment/schip02.pdf.

                      7   State Health Access Data Assistance Center. “Issue Brief: The Current
                           Population Survey (CPS) and State Health Insurance Coverage
                           Estimates.” March 2001. Available online at
                           http://www.shadac.org/publications/issuebriefs/IssueBrief1.pdf

                      8    Bureau of the Census and the Bureau of Labor Statistics. “Current
                           Population Survey - Design and Methodology.” Technical Paper
                           63RV, Appendix J. March 2002. Available online at
                           http://www.census.gov/prod/2002pubs/tp63rv.pdf

                      9   National Governor’s Association and National Association of State
                           Budget Officers. “The Fiscal Survey of the States.” December 2003.
                           Available online at www.nga.org/cda/files/FSS1203.PDF

                      10   Ibid.

                      11   Ibid.

                      12   Kaiser Commission on Medicaid and the Uninsured. “Out in the Cold:
                           Enrollment Freezes in Six State Children’s Health Insurance
                           Programs Withhold Coverage from Eligible Children.”
                           December 2003. Available online at
                           http://www.kff.org/medicaid/4159.cfm



     OEI-05-03-0280                A S S E S S I N G S TAT E S ’ P R O G R E S S       31
                 13    Kaiser Commission on Medicaid and the Uninsured. “Out in the Cold:
                       Enrollment Freezes in Six State Children’s Health Insurance
                       Programs Withhold Coverage from Eligible Children.”
                       December 2003. Available online at
                       http://www.kff.org/medicaid/4159.cfm. As of November 2003,
                       Alabama, Colorado, Florida, Maryland, Montana, and Utah had frozen
                       their SCHIP enrollment.

                 14    Current Population Survey, March 2002. Health Insurance Table
                       H108: “Health Insurance Coverage Status and Type of Coverage by
                       Selected Characteristics for Children Under 18: 2001.”
                       Available online at
                       http://ferret.bls.census.gov/macro/032002/health/h08_000.htm

                 15	   Current Population Survey, March 1988 - March 2003. Historical
                       Health Insurance Tables. Table HI-3: “Health Insurance Coverage
                       Status and Type of Coverage--Children Under 18 by Age: 1987 to
                       2002.” Available online at
                       http://www.census.gov/hhes/hlthins/historic/hihistt3.html

                 16    National Center for Health Statistics, Centers for Disease Control and
                       Prevention. “Health Insurance Coverage: Estimates from the National
                       Health Interview Survey, January – June 2003.” Posted January
                       2004. Available online at
                       http://www.cdc.gov/nchs/data/nhis/earlyrelease/insur200401.pdf

                 17    Urban Institute, “Children’s Insurance Coverage and Service Use
                       Improve.” July 31, 2003. Available online at
                       http://www.urban.org/url.cfm?ID=310816

                 18    Urban Institute, “Children’s Insurance Coverage and Service Use
                       Improve.” July 31, 2003. Available online at
                       http://www.urban.org/url.cfm?ID=310816

                 19    State Health Access Data Assistance Center. “Issue Brief 1: The
                       Current Population Survey (CPS) and State Health Insurance
                       Coverage Estimates.” March 2001. Available online at
                       http://www.shadac.org/publications/issuebriefs/IssueBrief1.pdf

                 20    Ibid.




OEI-05-03-0280                 A S S E S S I N G S TAT E S ’ P R O G R E S S 	   32
                 21   State Health Access Data Assistance Center. “Issue Brief 3: State
                      Health Insurance Coverage Estimates: Why State-Survey Estimates
                      Differ from CPS.” July 2001. Available online at
                      http://www.shadac.org/publications/issuebriefs/IssueBrief3.pdf

                 22   Office of the Assistant Secretary for Planning and Evaluation (ASPE).
                      “Understanding Estimates of the Uninsured: Putting the Differences
                      Into Context.” ASPE Research Note. Update June 2000. Available
                      online at http://aspe.hhs.gov/health/kids.htm

                 23   State Health Access Data Assistance Center. “Issue Brief 3: State
                      Health Insurance Coverage Estimates: Why State-Survey Estimates
                      Differ from CPS.” July 2001. Available online at
                      http://www.shadac.org/publications/issuebriefs/IssueBrief3.pdf

                 24   Ibid.

                 25   Mathematica Policy Research, Inc. Chapter IX: “State Progress
                      Toward Reducing the Number of Uninsured Low-Income Children.”
                      Implementation of the State Children’s Health Insurance Program:
                      Synthesis of State Evaluations. March 2003. Available online at
                      http://www.mathematica-mpr.com/PDFs/impchildhlth.pdf

                 26   Social Security Act, Section 2101(a)

                 27   42 C.F.R. § 457.750(c)(2)

                 28   Office of Management and Budget, Program Assessment Rating Tool.
                      “Assessing Program Performance for the FY 2004 Budget.” 2003.
                      Available online at
                      http://www.whitehouse.gov/omb/budget/fy2004/pma.html

                 29   Social Security Act, Section 2108(a)(1) and 42 C.F.R. § 457.750

                 30   42 C.F.R. § 457.710

                 31   Social Security Act, Section 2108(a)(1)

                 32   42 C.F.R. § 457.750(c)(2)




OEI-05-03-0280                A S S E S S I N G S TAT E S ’ P R O G R E S S       33
